                              Closeout for M99040028


        An informant1 (the informant) alleged a possible connection between NSF
funding and the sexual harassment of a post-doctoral scientist (the scientist)* by an
unidentified departmental official (the departmental official) at a university.3 The
scientist was funded as a post-doctoral associate on an NSF grant.4 According to the
informant, after terminating a relationship with the departmental official, the scientist
allegedly suffered from sexual harassment by the departmental official for approximately
two years.

         According to this allegation, the departmental official placed multiple harassing
telephone calls to the scientist which were charged to the departmental official's NSF
grant.     In addition, the informant alleges that after learning of the alleged sexual
harassment, a former NSF program officerS sent a letter to the university inquiring about
its failure to provide a proper working environment. The informant believes the former
NSF program officer sent a copy of this letter to NSF.

        The informant never provided any documentary evidence of the harassing
telephone calls, and after a thorough search of the NSF award jacket, OIG could not find
a copy of any letter sent by the former NSF program officer to the university concerning
the alleged sexual harassment or its failure to provide a proper working environment.

       This sexual harassment allegation was nearly ten years old before the informant
contacted our office and was not supported by any documentary evidence. Even if the
informant provided sufficient proof of the alleged sexual harassment, there is little causal
connection between the alleged sexual harassment and the proper administration of NSF
funding. Accordingly, this case is closed.




' [footnote redacted]
    [footnote redacted]
    [footnote redacted]
4
    [footnote redacted]
    [footnote redacted]


                                        Page 1 of 1
